September 28, 2021

Mr. Scott S. Harris
Office of the Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
Re: Sackett v. U.S. Environmental Protection Agency, No. 21-454
Blanket Consent Letter
Dear Mr. Harris
By this letter, Petitioners Michael Sackett and Chantell Sackett consent, in accordance
with Supreme Court Rule 37.2(a), to the filing of any and all amicus briefs in
connection with the Court’s review of the pending Petition for Writ of Certiorari in
this matter.
Sincerely,

Damien M. Schiff
Counsel of Record for Petitioners
cc: All Counsel

